Office of the Inspector General                                                                       Audit Report




TABLE OF CONTENTS
EXECUTIVE HIGHLIGHTS ............................................................................ i

BACKGROUND................................................................................................ 1

OBJECTIVE, SCOPE, AND METHODOLOGY ........................................ 2

FINDINGS ......................................................................................................... 3

   PROPER REPORTING OF ELECTRIC SALES AND
   NONDISCRIMINATION IN PROVIDING ELECTRICITY TO
   MEMBERS OF THE SAME RATE CLASS ....................................................... 3

   USE OF ELECTRIC SYSTEM REVENUES ..................................................... 5

   CONTRACT COMPLIANCE ISSUES ............................................................... 8

   DISTRIBUTOR INTERNAL CONTROL ISSUE ................................................ 9

   TVA OVERSIGHT OPPORTUNITIES ............................................................ 10

RECOMMENDATIONS ................................................................................ 11


APPENDICES
A. LETTER DATED DECEMBER 17, 2009, FROM DWIGHT A. MILLER TO
   ROBERT E. MARTIN

B. MEMORANDUM DATED DECEMBER 23, 2009, FROM KIMBERLY S.
   GREENE TO ROBERT E. MARTIN




Audit 2008-12042
                      TVA Office of                             January 2010
                      the Inspector                             Audit 2008-12042
                      General                                   Tullahoma Utilities Board
Why the OIG Did This Review                                     What the OIG Found
As part of the annual audit plan, the OIG performed a           Our review of Tullahoma found improvements were needed in the
review of the Tullahoma Utilities Board (Tullahoma),            areas of:
which is a distributor for the Tennessee Valley Authority
                                                                 Customer Classification and Metering – We identified
(TVA) power based in Tullahoma, Tennessee. Annual
                                                                  14 customers not classified correctly and one metering issue
revenues from electric sales were approximately
                                                                  that could impact (1) the proper reporting of electric sales and
$24.4 million in fiscal year 2008. TVA relies on
distributors to self-report customer usage and                    (2) nondiscrimination in providing electricity to members of the
subsequently the amount owed to TVA (Schedule 1).                 same rate class. We were unable to estimate the monetary
Customers are generally classified as residential,                effect of all the classification and metering issues because in
commercial, manufacturing, and lighting. Within these             some instances information was not available; however, for
classifications are various rate classes based on the             those where information was available, the monetary effect on
customer type and usage.                                          Tullahoma and TVA would not be material.
                                                                   Contract Compliance – We identified two areas where
The objective of the review was to determine                        Tullahoma was not meeting power contract requirements with
compliance with key provisions of the power contract                TVA. Specifically, we found inconsistent allocation of costs
between TVA and Tullahoma including (1) proper                      between service departments and customers with demand
reporting of electricity sales by customer class to
                                                                    above 50 kilowatts without a contract.
facilitate proper revenue recognition and billing by TVA;
(2) nondiscrimination in providing electricity to members        Distributor Internal Controls – We noted Tullahoma's
of the same rate class; and (3) use of revenues,                  internal controls could be strengthened to improve
including any surplus, for approved purposes, such as             completeness, accuracy, and validity of billing system data.
operating expenses, debt service, tax equivalent                  Specifically, we found Tullahoma has disabled the audit
payments, and reasonable reserves for renewals,                   logging function of the billing system and management was
replacements, and contingencies.                                  not reviewing exception reports showing changes to customer
                                                                  accounts or other billing system data.

What the OIG Recommends                                         In addition, we found Tullahoma had more than enough cash on
                                                                hand to cover planned capital projects and provide a cash
We recommend the Group President, Strategy and                  reserve. The cash reserve after planned capital projects was
External Relations, work with Tullahoma to                      about 29 percent. While TVA has established guidelines to
(1) remediate classification and metering issues,               determine if a distributor has adequate cash reserves (cash ratio
(2) comply with contract provisions related to proper           of 5 percent to 8 percent), TVA has not established guidelines to
allocation of joint costs, and (3) strengthen its internal      determine if a distributor's cash reserves are excessive. Based
controls.                                                       on prior distributor audit findings, TVA is in the process of defining
TVA and Tullahoma management generally agreed with              criteria for determining when a distributor's cash reserves are
and are taking actions to address the recommendations.          excessive. We also noted that Tullahoma used electric system
See Appendices for complete responses.                          funds to pay for expenses of the fiber optic business prior to
                                                                obtaining TVA approval to loan funds to the fiber department.
                                                                Finally, we identified certain opportunities to enhance TVA
                                                                oversight of the distributors that were also identified in previous
                                                                distributor audits. TVA is in the process of addressing these
                                                                findings which include the (1) absence of a joint cost study being
                                                                performed in over 20 years, (2) lack of an adequately defined
                                                                process to document approval of credits, (3) lack of guidance
                                                                related to when a demand meter is required, (4) lack of guidance
                                                                on what constitutes prudent expenditures, and (5) lack of criteria
For more information, contact Richard Underwood, Project        for evaluating when a distributor's cash is excessive.
Manager, at (423) 785-4824 or Jill Matthews, Deputy Assistant
Inspector General, Audits and Support, at (865) 633-7430.


                                                                                                                         Page i
Office of the Inspector General                                                                    Audit Report


BACKGROUND
The Tullahoma Utilities Board (Tullahoma) is a distributor for Tennessee Valley
Authority (TVA) power based in Tullahoma, Tennessee, with revenues from
electric sales of approximately $24.4 million in fiscal year (FY) 2008. TVA relies
on distributors to report customer usage and subsequently the amount owed to
TVA (Schedule 1). Customers are generally classified as residential,
commercial, manufacturing, and lighting. Within these classifications are various
rate classes based on the customer type and usage. Table 1 shows the
customer mix for Tullahoma as of June 2008.

                         Tullahoma's Customer Mix as of June 2008

                                                 Number of                                     Kilowatt
       Customer Classification                   Customers                Revenue             Hours Sold
    Residential                                             8,481           $10,003,568        130,446,395
    General Power – 50 Kilowatt (kW) &                      1,577             2,576,959         28,619,076
    Under (Commercial)
    General Power – Over 50 kW                                263            11,244,566        157,519,809
    (Commercial or Manufacturing)
    Street and Athletic                                       10                399,498          3,292,770
    Outdoor Lighting1                                         31                210,880          1,482,669
     Total                                                10,362            $24,435,471        321,360,719
                                                                                                  Table 1

The distributors are required to establish control processes over customer setup,
rate application, and measurement of usage to ensure accurate and complete
reporting to TVA. Tullahoma, like many other distributors, outsources its billing
and invoice processing to a third-party processor, Local Government Data
Processing Corporation (LGDPC). Tullahoma uses LGDPC systems to establish
and set up new customers, input customer meter information, perform the
monthly billing process, and execute customer account maintenance. All other
accounting and finance responsibilities are done by Tullahoma, which has a
Board of Directors providing oversight and a manager and accountant managing
the daily activities. Tullahoma also operates water, sewer, and fiber optic
businesses.2




1
    This customer count represents those customers who only have Outdoor Lighting accounts with
    Tullahoma. Another 578 customers at June 30, 2008, had outdoor lighting accounts with Tullahoma as
    well as accounts for other services. The kilowatt hours sold include all kilowatt hours for all accounts.
2
    Tullahoma’s fiber optic business, Lightube, provides Tullahoma’s customers with the option of adding
    internet, phone, and/or digital television services.
Audit 2008-12042                                                                                         Page 1
Office of the Inspector General                                             Audit Report


OBJECTIVE, SCOPE, AND METHODOLOGY
This audit was initiated as a part of our annual workplan. The objective was to
determine compliance with key provisions of the power contract between TVA
and Tullahoma including:

   Proper reporting of electricity sales by customer class to facilitate proper
    revenue recognition and billing by TVA.
   Nondiscrimination in providing electricity to members of the same rate class.
   Use of revenues, including any surplus, for approved purposes, such as:

     Operating expenses;
     Debt service;
     Tax equivalent payments; and
     Reasonable reserves for renewals, replacements, and contingencies.

To achieve our objective, we:

   Obtained Tullahoma electronic billing information from LGDPC for the audit
    period. The information was not complete because LGDPC does not
    maintain historical rate information for customers. We used the information
    available to generate reports of exceptions related to classification and
    metering and conducted further review of documentation and discussed with
    management.
   Documented and tested the procedures and controls in place to ensure
    complete and accurate invoicing of payments to TVA.
   Determined through inquiry and review of documentation whether Tullahoma
    had any nonelectric system-related business interests, supported by electric
    system funds.
   Reviewed disbursements to determine if electric system funds were used for
    any items not allowed under the TVA power contract.
   Reviewed methodology for allocations between electric and nonelectric lines
    of business for reasonableness and consistency of application.
   Reviewed cash and cash equivalents in relation to planned capital
    expenditures and other business uses of cash.
   Used nonstatistical sampling methods as needed to perform the tests above.

The scope of the review was for the period July 2006 through June 2008.
Fieldwork was conducted in September 2009. This performance audit was
conducted in accordance with generally accepted government auditing


Audit 2008-12042                                                                   Page 2
Office of the Inspector General                                                                 Audit Report


standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings
and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives. In performing this audit, nothing came to our attention that
indicated noncompliance with applicable laws and regulations.


FINDINGS
Our review of Tullahoma found issues involving customer classification and
metering that could impact (1) the proper reporting of electric sales and
(2) nondiscrimination in providing electricity to members of the same rate class.
In addition, we found Tullahoma had more than enough cash on hand to cover
planned capital projects and provide a cash reserve of about 29 percent. While
TVA has established guidelines to determine if a distributor has adequate cash
reserves (cash ratio of 5 percent to 8 percent), TVA has not established
guidelines to determine if a distributor's cash reserves are excessive. We also
noted Tullahoma used electric system funds to pay for expenses of the fiber optic
business prior to obtaining TVA approval to loan funds to the fiber department.

We also found improvements were needed to (1) comply with contract provisions
regarding allocation of costs between departments and the establishment of
written contracts with customers with demand above 50 kW, and (2) improve
Tullahoma's internal controls related to monitoring of data changes. Finally, we
have identified certain opportunities to enhance TVA oversight of the distributors.

PROPER REPORTING OF ELECTRIC SALES AND
NONDISCRIMINATION IN PROVIDING ELECTRICITY TO
MEMBERS OF THE SAME RATE CLASS
As discussed below, we identified issues involving the classification of customers
and metering which could impact the proper reporting of electric sales. In
addition, these issues impact the ability to ensure nondiscrimination in providing
power to members of the same rate class.3 We were unable to estimate the
monetary effect of the metering issue discussed below because customer
demand information was not available. However, for the two customer
classification items, the monetary effect on Tullahoma and TVA was not material.
Correcting classification and metering issues is nonetheless important to ensure
all customers are placed in the correct rate classification and charged the same
rate as other customers with similar circumstances.



3
    Section 5 Resale Rates subsection (a) of the power contract between TVA and Tullahoma, states that
    "power purchased hereunder shall be sold and distributed to the ultimate consumer without discrimination
    among consumers of the same class and that no discriminatory rate, rebate, or other special concession
    will be made or given to any consumer, directly or indirectly."
Audit 2008-12042                                                                                     Page 3
Office of the Inspector General                                                                       Audit Report


Customer Classification Issues
We found 14 customers that were not classified properly. The monetary impact
of the classification issues below was not material to Tullahoma or TVA. We
noted 14 customers were classified as residential instead of commercial under
the General Power Service schedule (GSA) Part 1.4 According to the Residential
Rate Schedule, "this rate shall apply only to a single-family dwelling where the
major use of electricity is for domestic purposes." Specifically, we found:

     Five customer accounts were commercial businesses. According to
      Tullahoma personnel, two of these locations were previously residential
      dwellings that have since become commercial. The accounts were most
      likely misclassified because the classification defaulted to residential during
      customer setup. According to Tullahoma personnel, these accounts have
      been reclassified.
     Nine customer accounts were for service other than residential, such as
      garages, barns, and a neighborhood sign. These customers also had a
      separate meter for their residences. According to Tullahoma personnel,
      these accounts have been reclassified.

Metering Issue
In addition to the customer classification issues, our review of billing agency data
noted an issue related to metering of customers at Tullahoma. We found
17 customers classified as a GSA Part 2 had energy usage in excess of
15,000 kilowatt hours (kWh) but were not measured for demand.5 Under Part 2
of the GSA Schedule and the Wholesale rate schedule with TVA, there would be
no effect on the revenues for TVA or the distributor unless customer demand
exceeded 50 kW. Without demand meters in place or evidence indicating other


4
    Under the General Power Rate - Schedule GSA between Tullahoma and TVA, customers are classified
    based on the following requirements:
     GSA Part 1 - If (a) the higher of (i) the customer's currently effective contract demand, if any, or (ii) its
      highest billing demand during the latest 12-month period is not more than 50 kW and (b) customer's
      monthly energy takings for any month during such period do not exceed 15,000 kWh.
     GSA Part 2 - If (a) the higher of (i) the customer's currently effective contract demand or (ii) its highest
      billing demand during the latest 12-month period is greater than 50 kW but not more than 1,000 kW or
      (b) if the customer's billing demand is less than 50 kW and its energy takings for any month during such
      period exceed 15,000 kWh.
     GSA Part 3 - If the higher of (a) the customer's currently effective contract demand or (b) its highest
      billing demand during the latest 12-month period is greater than 1,000 kW.
5
    Demand is a measure of the rate at which energy is consumed. The demand an electric company must
    supply varies with the time of day, day of the week, and the time of year. Peak demand seldom occurs for
    more than a few hours or fractions of hours each month or year, but electric companies must maintain
    sufficient generating and transmission capacity to supply the peak demand. Demand charges represent
    the high costs electric companies pay for generating and transmission capacity that sits idle most of the
    time. Demand charges are based on the amount of energy consumed in a specified period of time known
    as a demand interval. Demand intervals are usually 15 or 30 minutes. (Engineering Tech Tips,
    December 2000, Dave Dieziger, Project Leader, United States Department of Agriculture Forest Service,
    Technology & Development Program, http://www.fs.fed.us/eng/pubs/htmlpubs/htm00712373/index.htm.)
    For TVA distributors, the commercial and manufacturer Schedules of Rates and Charges direct that
    metered demand be calculated as “the highest average during any 30-consecutive-minute period of the
    month of the load metered in kW.”
Audit 2008-12042                                                                                           Page 4
Office of the Inspector General                                                                      Audit Report


circumstances exist which would prevent a customer from exceeding demand of
50 kW, we could not determine if any of these customers would have exceeded
50 kW.6 Therefore, we were unable to estimate the monetary effect of this issue.

USE OF ELECTRIC SYSTEM REVENUES
Under the TVA power contract, approved uses of revenues from electric system
operations, including any surplus, are (1) operating expenses; (2) debt service;
(3) tax equivalent payments; and (4) reasonable reserves for renewals,
replacements, and contingencies. As discussed further below, we noted
Tullahoma (1) had more than enough cash on hand to cover planned capital
projects and provide a cash reserve of about 29 percent and (2) used electric
system funds to pay for expenses of the fiber optic business prior to obtaining
TVA approval to loan funds to the fiber department.
Cash Reserves
We found Tullahoma had more than enough cash on hand to cover planned
capital projects and provide a cash reserve. As of June 30, 2008, Tullahoma
reported about $7.5 million in its cash and cash equivalent accounts, and the
cash reserve after planned capital projects was about 29 percent. While TVA
has established guidelines to determine if a distributor has adequate cash
reserves (cash ratio7 of 5 percent to 8 percent), TVA has not established
guidelines to determine if a distributor's cash reserves are excessive.8

Table 2 shows information about plans for major capital expenditures obtained
from Tullahoma's general manager.

                          Tullahoma's Planned Capital Expenditures


                  Capital Expenditure Plans                                              Project Cost
Service Center Improvements                                                                    $120,000
Transformers                                                                                   $100,000
Replace Truck #376                                                                             $135,000
Replace Truck #397                                                                              $18,000
Underground Thumper                                                                             $35,000
   Total Planned Capital Expenditures                                                          $408,000
                                                                                                    Table 2

6
    In response to a finding in a previous report, TVA indicated guidance will be issued to distributors to
    evaluate whether a demand meter is needed when usage reaches 25,000 kWh for a customer. None of
    the 15 customers’ usage reached 25,000 kWh during the audit period.
7
    TVA reviews the cash ratios of distributors as part of its regulatory rate review function. Cash ratio is
    calculated as follows:                         Cash + Cash Equivalents
                             Total Variable Expenses (Operations and Maintenance + Purchased Power)
8
    In separate reports issued on other distributors in May 2009, we recommended TVA develop criteria to be
    used in determining whether a distributor's cash reserves are excessive and incorporate the criteria into
    the rate setting process. TVA management agreed and will make recommendations to the TVA Board
    that additional financial metrics be employed for purposes of administering the resale rate provisions in
    Section 5 of the wholesale power contracts. The need to consider cash reserves will be included in TVA
    management's recommendations to the Board. A change in the current guidelines to include these
    additional financial metrics requires Board action. Target completion date is December 2010.
Audit 2008-12042                                                                                           Page 5
Office of the Inspector General                                                              Audit Report


When compared to Tullahoma's capital expenditure plans for the foreseeable
future, the balance in Tullahoma's cash accounts was enough to pay for these
items and leave about $7 million as a reserve, as shown in Table 3. Table 3 also
shows Tullahoma's cash ratio percentage was about 32.7 percent before
accounting for planned capital expenditures and about 29.2 percent after
accounting for them.

    Tullahoma's Cash Accounts Compared to Planned Capital Expenditures


                                  Cash and Cash     Planned Capital Reserve After Planned
                                   Equivalents       Expenditures    Capital Expenditures
FY 2008                                  $7,495,733       $408,000               $7,087,733
Cash Ratio Percentage                        32.7%                                    29.2%
                                                                                     Table 3

According to TVA records, over the past five years, Tullahoma was approved for
rate increases in 2003, 2007, and 2008. Table 4 shows the rate increases
received by Tullahoma and the cash position and cash ratio at June 30 prior to
the effective date of the rate increase.

           Tullahoma's Rate Increases, Cash Position, and Cash Ratio

                                                                  Rate Increase10
             Cash on Hand           Cash and Cash
           Equivalent to an 8%       Equivalents9        Additional      Effective
               Cash Ratio           and Cash Ratio       Revenue Percent   Date

                 $1,427,541            $4,343,851         $226,778       1.25%     10/1/2003
                                        (CR – 24%)
                                       $6,071,471
                 $1,652,167                                $61,218       0.28%     4/1/2007
                                        (CR – 29%)
                                       $6,485,532         $422,939       1.83%     4/1/2008
                 $1,748,704             (CR – 30%)
                                                                                     Table 4

Discussions with Tullahoma's management indicated the operating philosophy of
the Board of Directors and management was to use a conservative, generally
debt-averse approach. In 2001, Tullahoma's Board established its own targets
for electric system cash reserves because of the “… potential for large
unanticipated capital outlays due to acts of nature....” The cash reserve target
consisted of (1) 10 percent of the electric department plant assets
(undepreciated) and (2) 10 percent of the annual operating and maintenance



9
   The cash and cash equivalents and cash ratio were computed based on information from Tullahoma’s
   annual report as of June 30 prior to the effective date of the rate increase.
10
   These are the rate increases requested by and approved for the distributor. These increases do not
   include any rate increases or decreases made by TVA, including fuel cost adjustments, which were
   passed through by the distributor to the customer.
Audit 2008-12042                                                                                  Page 6
Office of the Inspector General                                           Audit Report


cost plus the annual wholesale power cost. Using these guidelines, we
calculated Tullahoma’s target cash reserve for the electric system for FY 2008 to
be approximately $4.4 million. Tullahoma still held approximately $3.1 million in
cash reserves in excess of its established target.

Use of Funds for Fiber Optic Business

During our review of payments made from electric system revenues, we noted
(1) the Tullahoma Board of Public Utilities approved approximately $40,000 to be
spent out of electric system revenues for a feasibility study relating to the fiber
optic business in December 2006 without obtaining TVA approval, (2) for a
period of time, Tullahoma paid fiber department expenses out of electric system
funds rather than loan the entire TVA-approved amount in a lump sum, and
(3) loan documents did not exist between the electric and fiber departments
indicating the payment terms, interest rates, electric department recourse, etc.
At the end of our audit period, June 30, 2008, the fiber department had not made
its TV, telephone, or internet services available to the public. The first test
customers were provided service in the summer of 2008, and the first customers
were billed for fiber service in January 2009.

Feasibility Study
In December 2006, Tullahoma's Board approved $40,000 of electric funds to be
used for a feasibility study related to the fiber optic business. In March 2007,
Tullahoma spent approximately $33,000 of electric system revenues to perform
the feasibility study. TVA did not approve this use of the electric revenues.

Financing of and Method of Paying for Fiber Department Expenses
In June 2007, TVA approved (1) Tullahoma to loan approximately $800,000 from
electric department revenues to the fiber division for start-up operations and (2) a
$2.2 million line of credit from the electric department that could be used in the
future. In addition, the City of Tullahoma Board of Mayor and Aldermen
approved a bond issue for the fiber department not to exceed $17.1 million.
These bonds were issued in July 2007, and Tullahoma received $16.4 million
from bond proceeds for the fiber business. Approximately $33,000 of these
funds was used to reimburse the electric department for expenses related to the
fiber feasibility study. According to Tullahoma management, no other amounts
loaned to the fiber department by the electric department have been repaid to
date.

After obtaining approval from TVA to loan $800,000 to the fiber department for
working capital, Tullahoma paid the fiber department expenses directly out of
electric system funds and then added the expenditure amounts to the balance
due from the fiber department rather than loan the entire $800,000 to the fiber
department in a lump sum. As of June 30, 2008, the electric department had
loaned and/or paid expenses of approximately $180,000 to/for the fiber
department. In November 2008, Tullahoma ceased paying fiber department
expenses out of electric system funds and is now making loans to the fiber

Audit 2008-12042                                                               Page 7
Office of the Inspector General                                            Audit Report


department in lump sum amounts as needed until the total loaned funds reach
the TVA-approved amount. While funding the fiber lines of business in this
manner does not appear to impose any additional level of risk on TVA, it
increases the difficulty of tracking amounts spent on fiber and lends the
appearance that the loan is not an arm's-length transaction.

Documentation of Loan Terms
Tullahoma was unable to provide any loan documents supporting the amounts
provided to the fiber department by the electric department that indicated interest
rates, payment terms, electric department recourse, etc. However, according to
Tullahoma management, (1) they are recognizing interest monthly at the rate the
electric department is able to receive on their other available cash investments;
(2) no payment terms have been drawn up because they are not sure when
payments can begin; and (3) the business plan provided to TVA anticipates
repayment of the loan to begin in the sixth year of the plan. Without executed
loan documents the electric department has no legal recourse to recoup the
funds expended to establish the fiber optic lines of business.

CONTRACT COMPLIANCE ISSUES
Our review noted two areas where Tullahoma was not meeting the requirements
of the power contract with TVA. Specifically, we found (1) inconsistent allocation
of costs between service departments and (2) customers with demand above
50 kW without a contract. Below is further discussion on these items.

Allocation of Joint Costs
We noted one instance in which Tullahoma's accounting practices did not
conform to the power contract with TVA. Under the power contract, the
distributor is allowed to "use property and personnel jointly for the electric system
and other operations, subject to agreement between Municipality and TVA as to
appropriate allocations." Our review of allocations made during the audit period
found the allocation percentages were not applied in accordance with the last
TVA joint cost allocation study, which occurred in 1986, or applied consistently.

Discussions with Tullahoma personnel indicated several different methods for
allocating costs had been employed over the past several years. In general,
allocation percentages are determined at the beginning of the year through
discussions between the General Manager and Administrative Manager.
However, when large purchases are made which could benefit several
departments, they are reviewed on a case-by-case basis and handled in the
manner determined most appropriate. Additionally, while historical
documentation regarding determination of allocation amounts to other
departments for rental expenses was provided, no other documentation was
available indicating how previous allocations of other expenses were determined.
TVA approval of these allocations was not obtained by Tullahoma.



Audit 2008-12042                                                                Page 8
Office of the Inspector General                                                                    Audit Report


Customer Contract Issues
Our review of customer contracts found required contracts for Tullahoma
customers with demand greater than 50 kW were not in place for all customers.
Under Tullahoma's contract with TVA, all customers that exceed 50 kW monthly
are required to sign a formal contract. We randomly selected 35 customers
classified as GSA Part 2 or higher in the billing agency data and found 29 had
billed demand in excess of 50 kW during the audit period indicating that a
contract with the distributor was required. Of these 29, 15 did not have contracts
with Tullahoma. We also performed additional testing to identify customer
accounts with billed demand in excess of 50 kW during the audit period indicating
that a contract with the distributor was required that lacked a contract demand
entry in the billing system. In addition to those customers noted above, we
identified another 102 customer accounts that did not have contracts with
Tullahoma. The contract includes a contract demand which is used in placing
the customer in the correct classification. For example, a customer becomes a
GSA Part 2 when either (1) the customer's currently effective contract demand or
its highest billing demand during the latest 12-month period is more than 50 kW
but less than 1,000 kW, or (2) the customer's billing demand is less than 50 kW
and its energy takings for any month during such period exceed 15,000 kWh.
Contract demand is also used in calculating the customer's billed demand and
minimum bill.

TVA management, in previous reports, indicated the threshold of 50 kW for
requiring customer contracts was too low. TVA management will recommend to
the Board that a new and higher threshold be established as part of the rate
change process with the distributors.11 In further discussions with TVA
personnel, the proposed threshold for requiring a contract is one megawatt
(MW). One of the customers in our testing exceeded the one MW demand
threshold to be recommended by TVA management.

DISTRIBUTOR INTERNAL CONTROL ISSUE
We noted Tullahoma's internal controls regarding data changes could be
strengthened to improve completeness, accuracy, and validity of the billing data.
Specifically, we found (1) Tullahoma management was not reviewing an
available report which shows, among other things, customer account changes,
and (2) Tullahoma disabled the audit logging function of the billing system
because of system performance issues.

We noted at least four people have the ability to make changes to a customer's
rate class or rate classification amounts. The billing system has a report,
"Calculation Exception Report," that provides listings of (1) high, low, or zero
billing amounts, (2) accounts billed a minimum amount, (3) all accounts that have


11
     When the rate change is put into effect, all retail customers above the new threshold will be expected to
     have executed contracts. Target completion date will coincide with the rate change efforts that are
     currently under way with the distributors and is expected to be in place by October 2010.
Audit 2008-12042                                                                                        Page 9
Office of the Inspector General                                               Audit Report


changed rate classes from the last billing period, (4) all prorated bills, and
(5) accounts that have been edited repeatedly. According to Tullahoma
management, billing personnel run this report but it is not being reviewed and
approved by management.

Tullahoma management indicated the audit logging function was disabled
because of system performance issues. Based on our discussions with billing
agency personnel, other than the report noted above, the audit logging function is
the only tool available to allow management to review changes to customer
accounts and system settings. Other discussions with billing agency personnel
indicated the audit log could be archived at specified timeframes to keep the log
from impacting system performance.

TVA OVERSIGHT OPPORTUNITIES
We found opportunities to enhance TVA's oversight of this distributor; however,
the issues noted for this distributor were the same as those reported in previous
Office of the Inspector General (OIG) distributor reports. Specifically, we noted
TVA has not:

   Performed a joint cost study in over 20 years when the TVA Accountant's
    Manual calls for one to be performed every three to four years or when major
    changes occur that affect joint operations,
   Adequately defined the process for granting the Small Manufacturing Credit to
    ensure proper documentation, including evidence of approval, is submitted
    and maintained,
   Provided adequate guidance on when a demand meter is required,
   Provided definitive guidance for distributors on what constitutes prudent
    expenditures, and
   Defined criteria for evaluating when a distributor's cash is excessive.

In response to the previous reports, TVA agreed to take corrective actions on
these issues. Full discussion of these issues and TVA's planned actions can be
found in prior OIG distributor reports on our Web site, www.oig.tva.gov.




Audit 2008-12042                                                                 Page 10
Office of the Inspector General                                           Audit Report


RECOMMENDATIONS
We recommend the Group President, Strategy and External Relations, work with
Tullahoma to improve compliance with the contract and/or strengthen internal
controls. Specifically, Tullahoma should:

1. Develop procedures to identify customers that are misclassified as residential
   when the location has been modified for use as a commercial business and
   when there are separate services associated with a residence that should be
   classified as commercial.

    Tullahoma's Response – Tullahoma has worked with the billing company
    and resolved these classification and billing issues. All customer
    classifications have been corrected. See Appendix A for Tullahoma's
    complete response.

    TVA Management's Comments – TVA agreed with the recommendation and
    noted Tullahoma has worked with the billing agency to resolve classification
    and billing issues. See Appendix B for TVA's complete response.

    Auditor's Response – The OIG concurs with the actions taken to correct the
    identified classification and billing issues. However, the response from
    Tullahoma did not address the development of procedures for identification of
    misclassified customers for the future. We believe Tullahoma should look at
    instituting such procedures to reduce the risk of similar instances recurring in
    the future.

2. Review the 17 customers with usage in excess of 15,000 kWh to determine if
   any should have demand meters installed.

    Tullahoma's Response – Tullahoma has confirmed all 17 customers are
    below 50 kW and are in the process of installing demand meters on any
    customer that is close to the GSA Part 2 classification to ensure demand is
    billed when necessary. Tullahoma stated the billing software is programmed
    to move customers into the next higher classification any time they exceed
    the limits of the lower classification and Tullahoma is confident this works.
    See Appendix A for Tullahoma's complete response.

    TVA Management's Comments – TVA agreed with the recommendation and
    noted Tullahoma has reviewed and confirmed all 17 customers are below the
    50 kW threshold and are being billed correctly. See Appendix B for TVA's
    complete response.

    Auditor's Response – The OIG concurs with the actions taken, and no
    further action is necessary.



Audit 2008-12042                                                              Page 11
Office of the Inspector General                                             Audit Report


3. Implement a procedure to (1) identify and document those customers that
   have circumstances (i.e., maximum load for the installed electrical
   configuration) which would never allow the customer to reach the 50 kW
   threshold and (2) routinely monitor demand or place demand meters at
   customer service addresses where usage could potentially reach the demand
   threshold.

    Tullahoma's Response – Tullahoma is in the process of installing demand
    meters on customers that might fall into this classification. See Appendix A
    for Tullahoma's complete response.

    TVA Management's Comments – TVA agreed that distributors should
    monitor demand to be sure they comply with the GSA rate schedule
    requirements and noted Tullahoma is in the process of installing demand
    meters on customers that might fall into this classification. In addition, TVA
    will provide guidance to distributors advising they evaluate the installation of a
    demand meter once a customer's monthly usage exceeds 25,000 kWh. See
    Appendix B for TVA's complete response.

    Auditor's Response – The OIG concurs with the planned actions.

4. Execute loan documents between the electric department and fiber
   department for the $800,000 loan amount and $2.2 million line of credit that
   include interest rates to be paid by the fiber department, terms for payback,
   recourse available to the electric department if fiber is unable to make
   payment on a timely basis, and any other protections available to the electric
   rate payer.

    Tullahoma's Response – Tullahoma did not initially set up these documents
    but did record all necessary information and transactions to track the loan of
    money to the fiber department. Tullahoma will set up the formal documents in
    conjunction with TVA accounting personnel. See Appendix A for Tullahoma's
    complete response.

    TVA Management's Comments – TVA agreed with the recommendation and
    noted TVA staff will work with Tullahoma to formalize the terms and
    conditions of the loan and line of credit. See Appendix B for TVA's complete
    response.

    Auditor's Response – The OIG concurs with the planned actions.

5. Until a joint cost study is performed, document methods used to determine
   allocation percentages for all shared expenses, maintain documentation of
   approval for the method for a reasonable period of time, and obtain approval
   for the allocations from TVA.



Audit 2008-12042                                                               Page 12
Office of the Inspector General                                           Audit Report


    Tullahoma's Response – TVA and Tullahoma plan to refresh the joint cost
    allocations for Tullahoma in 2010 and agree on any changes required. There
    is documentation in the form of history that shows the annual changes in the
    allocations, and this history will show the electric department is paying less
    each year of the total cost shared for the distributor. See Appendix A for
    Tullahoma's complete response.

    TVA Management's Comments – TVA agreed with the recommendation and
    noted TVA and Tullahoma plan to refresh the joint cost allocations in FY 2010
    and agree on any changes required. See Appendix B for TVA's complete
    response.

    Auditor's Response – The OIG concurs with planned actions; however, we
    maintain Tullahoma should document current allocation methodology for all
    shared expenses and maintain documentation of both management and TVA
    approval until a new joint cost study is completed.

6. Work with their billing agency to identify a method for using the audit logging
   function, reviewing the log for significant changes made to customer or
   system data, and copying the data to a new file on a monthly or quarterly
   basis to avoid system performance issues.

    Tullahoma's Response – Tullahoma was able to determine that the audit
    system is still tracking important information, such as changes to customer
    accounts. Tullahoma plans to restart the full audit system and move the files
    to another location to not cause performance problems with the system. See
    Appendix A for TVA's complete response.

    TVA Management's Comments – TVA has been unable to determine the
    benefit to TVA or ratepayers in accepting this recommendation and will defer
    to Tullahoma's determination regarding its own internal processes related to
    this recommendation. See Appendix B for TVA's complete response.

    Auditor's Response – The OIG concurs with the planned actions.

7. Review the Calculation Exception report for appropriateness after bill
   calculation and approve prior to bills being generated.

    Tullahoma's Response – Tullahoma stated the exception report is being
    reviewed by billing personnel. Management has not had the time to review
    these reports each time bills are calculated. There are two employees
    working in billing who have been doing the reviews for more than 20 years
    with no problems, and management can see no reason they should not
    perform this function with management oversight. See Appendix A for
    Tullahoma's complete response.



Audit 2008-12042                                                             Page 13
Office of the Inspector General                                         Audit Report


    TVA Management's Comments – TVA has been unable to determine the
    benefit to TVA or ratepayers in accepting this recommendation and will defer
    to Tullahoma's determination regarding its own internal processes related to
    this recommendation. See Appendix B for TVA's complete response.

    Auditor's Response – The OIG recognizes review of the exception report by
    billing personnel is a good business practice; however, we maintain
    Tullahoma's internal controls would be strengthened by periodic review of this
    exception report by management.




Audit 2008-12042                                                            Page 14
APPENDIX A
 Page 1 of 3
APPENDIX A
 Page 2 of 3
APPENDIX A
 Page 3 of 3
APPENDIX B
 Page 1 of 4
APPENDIX B
 Page 2 of 4
APPENDIX B
 Page 3 of 4
APPENDIX B
 Page 4 of 4
